        Timeliness of Desk Audit and Vacancy Announcement Processing by

                         the Bureau of Human Resources

                            Report 01-08, June 28, 2001


This report presents the results of the Office of Inspector General’s (OIG) review of
the timeliness of vacancy processing and desk audits at the Railroad Retirement
Board (RRB).

BACKGROUND

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers the health and welfare provisions of the Railroad
Retirement Act (RRA) and the unemployment and sickness provisions of the
Railroad Unemployment Insurance Act (RUIA). During fiscal year (FY) 2000, the
RRB paid more than $8 billion in retirement, survivor, sickness and unemployment
benefits under the RRA and RUIA.

In order to fulfill its mission, the RRB employs a staff of 1,100 full and part-time
workers at its headquarters in Chicago, Illinois and in 56 field locations across the
country. The salaries of RRB employees are determined by a formal position
classification system. This system is established in regulation and implemented
government-wide by the Office of Personnel Management (OPM). Each job is
assigned to a grade based on the complexity of tasks in its description as well as the
level of supervision received or given by the employee in performing his duties.
OPM has also established policies and procedures that govern the full spectrum of
personnel management responsibilities including preparing vacancy
announcements, screening job applicants, performance appraisals and discipline.

The Bureau of Human Resources services the RRB’s personnel management needs
with a staff of ten full-time and five part-time employees. Within the Bureau of
Human Resources, the Position Management and Classification Section administers
the agency’s position management, classification and pay programs. Position
classification includes performing desk audits. A desk audit is a re-evaluation of a
job’s position classification based on the tasks and responsibilities that actually
comprise the job which may differ from those considered when the job was initially
filled. Desk audits may be requested by management or staff and may result in an
increase, decrease, or no change in salary.

The Personnel Staffing Section manages the RRB’s manpower program and is
responsible for all personnel actions including vacancy announcements. When the
agency identifies a vacancy, the Personnel Staffing Section is responsible for
announcing the vacancy, responding to inquiries, and identifying qualified
candidates. Selection of the successful applicant from among the qualified
candidates is the responsibility of management elsewhere in the agency.
The OIG undertook this review in response to recent concerns raised by agency
management about the processing timeliness of vacancy announcements and desk
audits.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this review was to assess the processing timeliness of desk audits
and vacancy announcements by the Bureau of Human Resources. In order to
achieve our objective, we:

•	    analyzed timeliness statistics for vacancy announcements processed during
      FY 1997 through FY 2000;

•	    analyzed timeliness statistics for desk audits processed during FY 1998
      through FY 2000;

•     interviewed management and staff in the Bureau of Human Resources; and

•	    obtained and analyzed available data concerning human resources
      management staffing trends in the Federal workplace.

Field work was conducted on-site at RRB headquarters during March through May
2001.
                            RESULTS OF REVIEW

Our study of service delivery trends for vacancy announcements and desk audits
indicates that timeliness appears to have been adversely impacted by staff
reductions in the Bureau of Human Resources. In addition, the Bureau of Human
Resources has not established timeliness standards against which to measure its
performance.

A detailed discussion of our findings and recommendations follows.

Staff Reduction and Increased Workloads Adversely Impact Timeliness

The time required to process vacancy announcements and perform desk audits has
increased in recent years. This increase may be directly related to staff reductions
in the Bureau of Human Resources and an increase in the number of service
requests.

Vacancy Announcements: Timeliness Declines and the Workload Increases
Our analysis of available statistics showed that the total time required for processing
vacancy announcements has increased since FY 1997. The process of filling a
vacancy begins when the Bureau of Human Resources receives a service request
from an organizational unit that has a position to fill. Once the request has been
approved, the Bureau of Human Resources prepares and posts a vacancy
announcement, receives and reviews the resulting applications, and assesses basic
applicant qualifications. Selection of a successful candidate from the list of qualified
applicants takes place in the organizational unit where the vacant position is located.

The average time required to fill a vacant position increased from 108 days in FY
1997 to 139 days during FY 2000. Most of this increase can be attributed to an
increase in the time between receipt of a request to fill a position and the initial
posting of the vacancy announcement. During FY1997, the time between receipt of
the service request and public announcement of the vacancy averaged 12 days
compared with 33 days in FY 2000, a 175% increase. In addition, during the same
period, the workload of vacancy announcements increased by 44% from 93 in FY
1997 to 134 during FY 2000.

A detailed analysis of the timeliness and workload trends for vacancy
announcements is presented in Appendices I and II respectively.

Desk Audits: Timeliness Declines

Our analysis of available statistics showed that the total time required for processing
requests for desk audits has increased since FY 1998. The process of performing a
desk audit includes a detailed study of actual job duties for comparison with the job
description on which the present salary grade is based.

The increase in time required to process requests for desk audits is mainly
attributable to the period between receipt of the request and start of the audit. The
time elapsed between receipt of a request for a desk audit by the Bureau of Human
Resources and the start of the desk audit process increased from 93 days in FY
1998 to 141 days in FY 2000. However, once begun, the time required to complete
a desk audit, and report the results, did not vary greatly during that same period.

A detailed analysis of the timeliness trends for desk audits is presented in Appendix
III.

Staffing Levels Decline in the Bureau of Human Resources

The Bureau of Human Resources staffing level decreased over the last five years by
25%. This decrease was felt in both the staffing and classification sections. The
number of full-time equivalent employees in the staffing section decreased by 32%
while the number of full-time equivalent employees in the classification section
decreased by 25%. A detailed analysis of the staffing levels is presented in
Appendix IV.
In addition to being smaller than in previous years, the classification section’s current
staff is less experienced. The current staff has 47 years less combined experience
from the staff that was in place just four years ago.

We compared the RRB’s human resources staffing level with the levels of other
Federal agencies. We compared the ratio of total agency personnel to human
resources staff for 112 agencies, including the RRB. A low ratio indicates more
human resources staff in relation to total agency personnel.

Based on OPM employment figures for December 2000, the average for all 112
agencies was 42 to 1, or 42 agency employees for every 1 full-time human
resources employee. The RRB’s ratio is 84 to 1, double the average. That is, the
RRB’s human resources’ staff services twice as many individuals per capita. Of 112
agencies in the study, only five had higher ratios of total agency personnel to human
resources staff than the RRB. (Sixty-seven agencies had lower ratios. Thirty-nine
very small agencies, most with total agency personnel counts under 50, reported no
dedicated human resources personnel.) Based on this comparison, we can
conclude that the RRB’s Bureau of Human Resources is not overstaffed relative to
agency size.

High ratios of total agency personnel to human resources staff, as experienced at
the RRB, may indicate efficiency. However, when timeliness suffers to the extent
that the consumers of the service complain, effectiveness is probably being
sacrificed for efficiency.

Based on our analysis, we have concluded that a decreased staffing level, combined
with the increased workload of vacancy announcements has caused processing
delays. The Bureau of Human Resources has requested an increase in its staff and
funding to outsource selected services. Accordingly, we have no recommendations.


Performance Standards for Timeliness Have Not Been Established

The Bureau of Human Resources has not established performance objectives
against which to assess the timeliness of its activities. The lack of performance
measures makes evaluating timeliness subjective. Although sound business
principles dictate that services be delivered within a reasonable period of time, in the
absence of standards, reasonableness becomes an almost entirely subjective
matter. The absence of standards makes it difficult to render an objective judgment
and makes it easier to delay action.

In this age of performance measures in the Federal government, it is essential that
activities basic to an operating unit’s mission be measured. Performance measures
are effective internal controls. Although the RRB has established performance
measures for key areas of agency responsibility, this initiative did not address the
timeliness of human resource activity. The Bureau of Human Resources tracks
timeliness, however these statistics are not circulated to higher levels of
management in the monthly administrative report.

In the previous sections of this report we responded to management concerns about
the reasons for declines in processing timeliness. We believe that the conditions
identified by our review could have been positively impacted if the Bureau of Human
Resources had used performance goals to report on the timeliness of its operations.

Recommendations

We recommend that the Bureau of Human Resources:

      1. create performance timeliness goals for Human Resources services, and

      2. report and track these goals in the monthly administrative reports.


Management’s Response

Management agrees with the recommendations. However, the acting Director of
Human Resources favors development of such goals after the current problems
have been addressed. Once the necessary decisions have been made on the
proper staffing level for the Bureau of Human Resources, and new staff receives
training/experience to perform at a productive level, the recommended goals will be
established and monitored.
                                                                             APPENDIX I





                                         Filled Positions

                                Vacancy Announcement Timeliness





    140.0                                                                     Days until
                                                                              position filled


    120.0
                                                                              Days until
                                                                              Sent to Bureau
    100.0


                                                                              Days posted
D    80.0
A
Y
S    60.0
                                                                              Days to Begin
                                                                              Posting Period

     40.0


                                                                              Days until
     20.0                                                                     Board
                                                                              approved if
                                                                              required

      0.0
               97               98                 99        00
                                     FISCAL YEAR




    The average time required to fill a vacancy, from the initial request to post an
    announcement to completion of the selection process has increased 28% from an
    average of 108 days in FY 1997 to 139 days in FY 2000.

    The average number of days between receipt of the service request in the Bureau of
    Human Resources and the public announcement of a vacancy increased by 21.5
    days, or 184%, between FY 1997 and FY 2000. The time between receipt and
    posting averaged:

                    •   11.7 days in FY 1997,
                    •   11.3 days in FY 1998,
                    •   26.6 days in FY 1999, and
                    •   33.2 days during FY 2000.

    After posting of the job vacancy, the number of days to complete the selection
    process and forward a list of qualified candidates, increased from an average of 15.5
    days in FY 1997 to 24.3 days in FY 2000.

    It should be noted that not all requests to post require Board Member approval.
                                                                    APPENDIX II





                               Posting Requests



              140


              120


              100


              80
     Number




              60


              40


              20


                0
                    97          98                 99        00
                                     Fiscal Year




The posting request workload increased from 93 in FY 1997 to 134 in FY 2000, an
increase of 44%.
                                                                      APPENDIX III





                                DESK AUDIT TIMELINESS

     250.0




                                                                       Days until
     200.0                                                             reported



                                                                       Completion of
     150.0
 D                                                                     analysis
 A
 Y
 S
     100.0                                                             Days until audit
                                                                       starts


      50.0
                                                                       Days to begin



       0.0
              1998               1999            2000
                             FISCAL YEAR




The average number of days required for a desk audit, from receipt of the request by
the Bureau of Human Resources to completion of their review, increased by 72
days, from 140 days in FY 1998 to 212 days in FY 2000.

Workload size has remained steady for desk audits. The Bureau of Human
resources received 20 requests for desk audits during FY 1998, 22 in 1999 and 18 in
FY 2000.
                                                                      APPENDIX IV


                          Bureau of Human Resources FTE
                                    FTFFFFTEFTE
       19


       18


       17


       16


       15
 FTE
       14


       13


       12


       11


       10
            96       97         98                 99   00    01
                                     FIscal Year




The Bureau of Human Resources staffing level has decreased over the last five
years from 18.28 full-time equivalent employees (FTE), in FY 1996 to 13.63 FTE, in
FY 2001, a loss of 4.65 FTE.

The Staffing section has been losing FTEs during the same period. In FY 1996,
staffing had 4.2 FTEs. In FY 2001 they have 2.87 FTEs. This is a 32% reduction

FTEs in the classification section have decreased in recent years from 4.2 in FY
1996, to 3.8 in FY 1998, to 3.47 in FY 2000, and 3.2 as of April 2001. This is a 25%
reduction in staff.
